  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 WEAKNESSES IN MOLINA MEDICAID
 SOLUTIONS’ INFORMATION SYSTEM
 GENERAL CONTROLS OVER IDAHO’S
MEDICAID CLAIMS PROCESSING SYSTEM
    INCREASE VULNERABILITIES



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Thomas M. Salmon
                                                 Assistant Inspector General
                                                      for Audit Services

                                                          July 2014
                                                        A-09-13-03001
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Idaho did not ensure that its contractor Molina Medicaid Solutions implemented
 adequate information system general controls over Idaho’s Medicaid Management
 Information System. We identified 21 reportable weaknesses in access controls,
 configuration management, and security management.


WHY WE DID THIS REVIEW

The U.S. Department of Health and Human Services (HHS) oversees States’ use of various
Federal programs, including Medicaid. State agencies are required to establish appropriate
computer system security requirements and conduct biennial reviews of computer system
security used in the administration of State plans for Medicaid and other Federal entitlement
benefits. This review is one of a number of HHS Office of Inspector General (OIG) reviews of
States’ computer systems used to administer HHS-funded programs.

In a prior OIG audit, we reviewed the security of the Idaho Department of Health and Welfare’s
(State agency) Medicaid network. As part of the State agency’s overall administration of the
Medicaid claims processing system, the State agency contracted with Molina Medicaid Solutions
(Molina) to operate its Medicaid Management Information System (MMIS). This review
focused solely on Molina’s information system general controls over the State agency’s MMIS.

Our objective was to determine whether the State agency ensured that Molina implemented
adequate information system general controls over the State agency’s MMIS.

BACKGROUND

The State agency administers the Medicaid program. During fiscal year 2013, the State agency
provided Medicaid services to more than 235,000 Medicaid beneficiaries, totaling approximately
$1.8 billion in expenditures.

The State agency’s MMIS processes Medicaid claims and manages sensitive claims data, such as
beneficiary names and Social Security numbers. The State agency uses the State’s computer and
telecommunications facility to connect to Molina’s Boise, Idaho, facility, which provides access
to the MMIS computers located at Molina’s New Mexico Data Center in Albuquerque, New
Mexico.

To accomplish our objective, we reviewed policies and procedures, interviewed staff, and
reviewed supporting documentation. Also, we used audit software-scanning programs to
determine whether selected network devices and the Medicaid claims database had security-
related vulnerabilities.




Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                  i
WHAT WE FOUND

The State agency did not ensure that Molina implemented adequate information system general
controls over the State agency’s MMIS. Specifically, we identified 21 reportable weaknesses,
which we consolidated into 6 findings and grouped into the following categories: access
controls, configuration management, and security management.

    •   Access controls. Molina had inadequate logical access security controls, including weak
        user authentication for remote network access, an inadequate password history policy,
        and inadequate encryption of network passwords.

    •   Configuration management. Molina had inadequate security settings for network
        devices, such as allowing the use of insecure network protocols (the language of rules
        and conventions for communication between network devices) and the use of network
        services (functions that help networks to operate more efficiently) that were not necessary
        for Molina’s network, and inadequate management of the Medicaid claims database. In
        addition, Molina did not have written policies for its patch management program.

    •   Security management. Molina had no security control policies and procedures to
        periodically review and account for inventory of portable devices. In addition, Molina
        had (1) no policies and procedures for annual security awareness training and
        (2) inadequate policies and procedures for terminated and transferred employees and for
        background checks of employees.

We ranked each of the findings as high impact.

Although we did not find evidence that the weaknesses had been exploited, exploitation could
result in unauthorized access to, and disclosure of, sensitive information, as well as disruption of
critical operations to the Medicaid program. As a result, we believe that the weaknesses are
collectively and, in some cases, individually significant and could potentially compromise the
integrity of the Medicaid program. In addition, without proper safeguards, systems are
unprotected from individuals and groups with malicious intent to obtain access to commit fraud,
waste, or abuse or launch attacks against other computer systems and networks.

WHAT WE RECOMMEND

We recommend that the State agency ensure that Molina implements adequate information
system general controls over the State agency’s MMIS. Specifically, we recommend that the
State agency ensure that Molina:

    •   implements stronger user authentication for remote network access, strengthens its
        password history policy, and uses a secure method to store its encrypted network
        passwords;

    •   implements secure configuration settings for its network devices;



Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                     ii
    •   implements policies and procedures to secure its Medicaid claims database;

    •   implements policies for its patch management program;

    •   implements policies and procedures to periodically review and account for inventory of
        all portable devices and identify the custodian of those devices; and

    •   implements (1) policies and procedures for annual security awareness training and
        (2) adequate policies and procedures for terminated and transferred employees and for
        background checks of employees.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with all of our
recommendations except for parts of two recommendations. Specifically, the State agency did
not concur with parts of our first and sixth recommendations, respectively, that it ensure that
Molina implements adequate user authentication for remote network access and implements
adequate policies and procedures for terminated and transferred employees. The State agency
provided information on actions that it had taken or planned to take to address the
recommendations with which it concurred.

After reviewing the State agency’s comments, we revised our first recommendation to indicate
that the State agency ensure that Molina implements stronger user authentication for remote
network access in accordance with Federal guidance. Nothing in the State agency’s comments
caused us to revise our sixth recommendation.




Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                    iii
                                                     TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Federal Oversight of States’ Computer Systems .................................................1
                 Idaho Medicaid Program......................................................................................1
                 Information System General Controls .................................................................2

           How We Conducted This Review....................................................................................2

FINDINGS ...................................................................................................................................3

           Federal Requirements ......................................................................................................3

           Molina Had Inadequate Access Controls .........................................................................4
                 Inadequate Logical Access Security Controls .....................................................4

           Molina Had Inadequate Configuration Management ......................................................5
                 Inadequate Security Settings for Network Devices .............................................5
                 Inadequate Database Security Controls ...............................................................5
                 No Patch Management Policies ...........................................................................6

           Molina Had Inadequate Security Management................................................................7
                 Inadequate Security Control Policies and Procedures .........................................7
                 Inadequate Security-Related Personnel Policies and Procedures ........................7

RECOMMENDATIONS .............................................................................................................8

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................................9

APPENDIXES

           A: Audit Scope and Methodology ..................................................................................10

           B: Requirements Related to Information System General Controls ...............................11

           C: State Agency Comments ............................................................................................14




Molina’s Information System General Controls Over Idaho’s MMIS (A-09-12-03009)                                                                     iv
                                            INTRODUCTION

WHY WE DID THIS REVIEW

The U.S. Department of Health and Human Services (HHS) oversees States’ use of various
Federal programs, including Medicaid. State agencies are required to establish appropriate
computer system security requirements and conduct biennial reviews of computer system
security used in the administration of State plans for Medicaid and other Federal entitlement
benefits. This review is one of a number of HHS Office of Inspector General (OIG) reviews of
States’ computer systems used to administer HHS-funded programs.

In a prior OIG audit, we reviewed the security of the Idaho Department of Health and Welfare’s
(State agency) Medicaid network. 1 As part of the State agency’s overall administration of the
Medicaid claims processing system, the State agency contracted with Molina Medicaid Solutions
(Molina) 2 to operate its Medicaid Management Information System (MMIS). This review
focused solely on Molina’s information system general controls over the State agency’s MMIS.

OBJECTIVE

Our objective was to determine whether the State agency ensured that Molina implemented
adequate information system general controls over the State agency’s MMIS.

BACKGROUND

Federal Oversight of States’ Computer Systems

Federal regulations require State agencies to determine appropriate computer system security
requirements based on recognized industry standards or standards governing security of Federal
computer systems and information processing (45 CFR part 95). In addition, these regulations
require HHS to conduct periodic onsite reviews of State and local agencies to determine the
adequacy of computer methods and practices and to ensure that computer equipment and
services are used for purposes consistent with proper administration under the Social Security
Act.

Idaho Medicaid Program

The State agency administers the Medicaid program. During fiscal year 2013, the State agency
provided Medicaid services to more than 235,000 Medicaid beneficiaries, totaling approximately
$1.8 billion in expenditures.



1
 Weaknesses in Idaho’s Information System General Controls Over Its Medicaid Claims Processing System
Increase Vulnerabilities (A-09-12-03009), issued March 21, 2014.
2
  Molina is a wholly owned subsidiary of Molina Health Systems and provides business processing and information
technology administrative services to State Medicaid agencies. As of June 25, 2014, Molina had contracts with
Idaho and four other States.


Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                                1
The State agency’s MMIS processes Medicaid claims and manages sensitive claims data, such as
beneficiary names and Social Security numbers. The State agency uses the State’s computer and
telecommunications facility to connect to Molina’s Boise, Idaho, facility, which provides access
to the MMIS computers located at Molina’s New Mexico Data Center in Albuquerque, New
Mexico.

Information System General Controls

Information system general controls include policies and procedures that apply to an entity’s
overall computer operations. Some primary objectives of general controls are to safeguard data,
protect computer application programs, prevent unauthorized access to system software, and
ensure continued operations in case of unexpected interruptions.

The Medicaid program depends on general controls, which are critical to ensuring the
confidentiality, integrity, and availability of critical information and information systems. In
addition, without proper safeguards, systems are unprotected from individuals and groups with
malicious intent to obtain access to commit fraud, waste, or abuse or launch attacks against other
computer systems and networks. 3

HOW WE CONDUCTED THIS REVIEW

We reviewed Molina’s information system general controls over the State agency’s MMIS. To
accomplish our objective, we used appropriate procedures from the Government Accountability
Office’s Federal Information System Controls Audit Manual (FISCAM), which provides
guidance on evaluating general controls over computer-processed data from information
systems. We reviewed policies and procedures, interviewed staff, and reviewed supporting
documentation. To perform our tests, we used audit software-scanning programs to identify
potential security-related configuration vulnerabilities on two types of network devices and the
Medicaid claims database.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A describes our audit scope and methodology.




3
  Fraud represents intentional acts of deception with knowledge that the action or representation could result in an
inappropriate gain. Waste includes inaccurate payments for services, such as unintentional duplicate payments.
Abuse represents actions inconsistent with acceptable business or medical practices.


Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                                         2
                                              FINDINGS

The State agency did not ensure that Molina implemented adequate information system general
controls over the State agency’s MMIS. Specifically, we identified 21 reportable weaknesses,
which we consolidated into 6 findings and grouped into the following categories: access
controls, configuration management, and security management.

    •   Access controls. Molina had inadequate logical access security controls, including weak
        user authentication for remote network access, an inadequate password history policy,
        and inadequate encryption of network passwords.

    •   Configuration management. Molina had inadequate security settings for network
        devices, such as allowing the use of insecure network protocols (the language of rules
        and conventions for communication between network devices) and the use of network
        services (functions that help networks to operate more efficiently) that were not necessary
        for Molina’s network, and inadequate management of the Medicaid claims database. In
        addition, Molina did not have written policies for its patch management program.

    •   Security management. Molina had no security control policies and procedures to
        periodically review and account for inventory of portable devices. In addition, Molina
        had (1) no policies and procedures for annual security awareness training and
        (2) inadequate policies and procedures for terminated and transferred employees and for
        background checks of employees.

We ranked each of the findings as high impact.

Although we did not find evidence that the weaknesses had been exploited, exploitation could
result in unauthorized access to, and disclosure of, sensitive information, as well as disruption of
critical operations to the Medicaid program. As a result, we believe that the weaknesses are
collectively and, in some cases, individually significant and could potentially compromise the
integrity of the Medicaid program. In addition, without proper safeguards, systems are
unprotected from individuals and groups with malicious intent to obtain access to commit fraud,
waste, or abuse or launch attacks against other computer systems and networks.

FEDERAL REQUIREMENTS

Federal requirements from the Health Insurance Portability and Accountability Act (HIPAA)
Security Rule for access management appear in 45 CFR part 164. For additional requirements,
we used Office of Management and Budget (OMB) Circular No. A-130, Appendix III; Federal
Information Processing Standards Publication (FIPS) 140-2, Security Requirements for
Cryptographic Modules; National Institute of Standards and Technology (NIST) Special
Publication 800-12, An Introduction to Computer Security: The NIST Handbook; NIST Special
Publication 800-40, Version 2, Creating a Patch and Vulnerability Management Program; NIST
Special Publication 800-50, Building an Information Technology Security Awareness and
Training Program; and NIST Special Publication 800-53, Revision 3, Security and Privacy
Controls for Federal Information Systems and Organizations.


Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                     3
See Appendix B for specific provisions and citations.

MOLINA HAD INADEQUATE ACCESS CONTROLS

Access controls limit or detect inappropriate access to computer resources (data, equipment, and
facilities), thereby protecting them from loss, disclosure, and unauthorized modification. Such
controls include both logical and physical controls:

       •   Logical access controls require users to authenticate themselves (by using passwords or
           other identifiers) and limit the files and other resources that authenticated users can
           access and the actions that they can execute.

       •   Physical access controls restrict physical access to computer resources and protect them
           from intentional or unintentional loss or impairment.

In assessing Molina’s access controls, we identified weaknesses in its logical access security
controls. Inadequate access controls diminish the reliability of computerized information and
increase the risk of unauthorized disclosure, modification, and destruction of sensitive
information and disruption of service.

Inadequate Logical Access Security Controls

Molina had not implemented adequate logical access security controls. Specifically, we noted
the following:

       •   Molina had weak user authentication for remote network access. 4

       •   Molina had an inadequate policy for the password history setting to secure its network. 5

       •   Molina did not store its encrypted passwords on its network server using a secure
           method.

Molina officials stated that they considered their user authentication procedures and password
settings secure and compliant with HIPAA requirements and established industry practices.
Molina officials also stated that they would store their encrypted passwords using a secure
method.

Without strong logical access security controls, there is an increased risk of unauthorized access
to sensitive computer systems and data.




4
    Authentication is a process that confirms a user’s identity before he or she can access the network.
5
 Password history determines the number of unique new passwords that have to be associated with a user account
before an old password can be reused.


Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                                   4
MOLINA HAD INADEQUATE CONFIGURATION MANAGEMENT

Configuration management provides reasonable assurance that (1) changes to information system
resources, such as the settings of devices on the network, 6 are authorized and (2) systems are
configured and operated securely and as intended. Configuration management policies and
procedures should be developed, documented, and implemented at the entitywide, system
(hardware), and application (software) levels to ensure the security of the system.

In assessing Molina’s configuration management, we identified weaknesses in its security
settings for network devices, its database security controls, and its patch management policies.
Weaknesses in these elements increase the risk that network devices are not configured properly
and securely; a secure configuration includes appropriate patching levels, disabling of
unnecessary services, and protection against viruses and worms.

Inadequate Security Settings for Network Devices

Molina did not adequately configure secure settings for its network devices. We judgmentally
selected two types of network devices (three switches and one firewall) for testing and used an
audit software-scanning program that queries and extracts information from the devices to
identify settings with potential security-related configuration vulnerabilities. We identified a
total of nine weaknesses in this area: five related to switches and four related to switches and the
firewall. For example, Molina allowed the use of insecure network protocols 7 to manage
network devices and did not adequately protect logging information on some of its network
devices.

Molina officials agreed to review device configurations and remove potential security-related
configuration vulnerabilities.

Because Molina’s network devices are integral to ensuring the security of the State agency’s
MMIS, failure to adequately secure the devices exposes the network and its resources to attacks
on the confidentiality, integrity, and availability of sensitive information, such as electronic
protected health information (ePHI). Such information includes names, addresses, birth dates,
Social Security numbers, and medical information.

Inadequate Database Security Controls

Molina did not adequately secure its Medicaid claims database. Specifically, we noted the
following:

      •    Molina did not have written policies and procedures for database management.


6
  Devices used to secure networks include (1) switches that forward information among segments of a network,
(2) firewalls that prevent unauthorized access to or from a network, and (3) routers that filter and forward data along
the network.
7
    Network protocols define a language of rules and conventions for communication between network devices.


Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                                        5
       •   Molina did not regularly review database logs to ensure the integrity and security of
           system access, system configurations, and access to ePHI.

       •   Molina did not adequately encrypt its Medicaid claims database.

       •   Molina did not properly configure access to the Medicaid claims database. We used an
           audit software-scanning program that queries and extracts information from the database
           to identify potential security-related configuration vulnerabilities. We identified some
           Molina database users and groups that had more privileges than were necessary for their
           job functions.

Molina officials stated that they are developing policies and procedures for database
management, reviewing database logs when necessary, and testing a new database encryption
technology. Molina officials also stated that some database users were given excess privileges
on the database when it was built and that the privileges were not later removed.

Because the security of Molina’s Medicaid claims database is essential to protecting sensitive
claims data, inadequate security controls expose the database to attacks on the confidentiality,
integrity, and availability of ePHI:

       •   Without written policies and procedures for database management, there is an increased
           risk of unauthorized access to sensitive data housed in the database.

       •   Without regular reviews of database logs, an entity has limited ability to establish
           accountability, ensure compliance with security policies, and investigate violations.

       •   Without adequate database encryption, there is an increased risk of unauthorized users
           getting access to, and possibly altering, the contents of sensitive Medicaid data, such as
           ePHI, including names, addresses, birth dates, Social Security numbers, and medical
           information.

       •   Without proper database access configurations, users and groups that have more
           privileges than necessary may be able to obtain unauthorized access to sensitive data
           housed in the database.

No Patch Management Policies

Molina did not have written policies for its patch management program. 8 However, Molina had
adequate procedures to test and deploy patches.

Molina officials stated that they had identified a gap in their policies and are developing a formal
patch management policy based on their current procedures.



8
    A patch is a piece of software designed to fix problems in or update a computer program.


Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                          6
Without adequate patch management policies to address software vulnerabilities, an entity
cannot be sure that patches have been effectively applied and that there are not any configuration
discrepancies, which could allow an attacker to gain unauthorized access to sensitive
information, such as ePHI.

MOLINA HAD INADEQUATE SECURITY MANAGEMENT

An entitywide program for security planning and management is the foundation of an entity’s
security control structure and a reflection on senior management’s commitment to addressing
security risks.

In assessing Molina’s entitywide security program, we identified weaknesses in the following
critical elements: (1) documenting and implementing security control policies and procedures
and (2) implementing effective security awareness and other security-related personnel policies
and procedures. Weaknesses in these elements increase the risk of unauthorized use, disclosure,
modification, or loss of sensitive information and information systems supporting the agency’s
mission.

Inadequate Security Control Policies and Procedures

Molina had not implemented adequate security control policies and procedures. Specifically, we
noted that Molina did not have specific inventory policies and procedures for portable devices,
such as laptop computers and Universal Serial Bus storage devices, and did not periodically
review and account for inventory of these devices. In addition, Molina did not identify the
custodian of portable devices.

Molina officials stated that they did not know it was necessary to periodically review the
inventory and identify the custodian of portable devices. Molina officials also stated that they
believed the software they used to track the connection of devices to the network was sufficient
to review and account for portable devices.

Without adequate inventory controls for all portable devices, Molina is at risk of a data breach.
Portable devices costing as little as $50 could contain ePHI and be easily lost or stolen, making
Molina potentially liable for millions of dollars because of a data breach. 9

Inadequate Security-Related Personnel Policies and Procedures

Molina had not implemented adequate security-related personnel policies and procedures.
Specifically, we noted the following:

    •   Molina did not have policies and procedures that required its employees to complete
        general security awareness training annually. We judgmentally selected five Molina
        employees and found that none of them had completed general security awareness
        training in over a year.

9
 The Ponemon Institute’s report entitled 2013 Cost of Data Breach Study: United States indicated that the average
cost of a data breach for an organization in 2012 was $5.4 million.


Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                                      7
    •   Molina did not have adequate policies and procedures for terminated or transferred
        employees. We judgmentally selected six terminated employees and one transferred
        employee and found that Molina had not completed exit documents for any of the seven
        employees. Exit documents show the steps to be completed when an employee is
        terminated or transferred, including collecting keys and electronic keycards and notifying
        network administrators to remove the employee’s network access. In addition, Molina’s
        policies and procedures required the completion of exit documents only for employees
        being terminated, not for those being transferred.

    •   Molina did not have adequate policies and procedures to ensure that employee
        background checks were performed. We judgmentally selected 10 employees who had
        access to ePHI and found that Molina did not have background check documentation for
        2 of them.

Molina officials stated that they were not aware that annual refresher training on general security
awareness was required. Molina officials agreed that exit documents should be completed for all
employees being terminated or transferred; they also stated that exit documents were not
completed for terminated employees and were not required to be completed for transferred
employees because of an administrative oversight. Molina officials stated that they could not
find the background check documentation for two employees.

Without policies and procedures requiring employees to complete general security awareness
training annually, there is an increased risk that employees with access to the MMIS may not be
appropriately trained to fulfill their security responsibilities.

Without adequate policies and procedures on completion of exit documents, Molina runs the risk
of failing to remove transferred and terminated employees’ physical and logical access, which
could result in unauthorized access to ePHI, compromising of data, or sabotaging of information
systems.

Without adequate policies and procedures on performing background checks of employees, an
organization runs the risk of hiring unqualified or untrustworthy individuals. In addition,
background checks help determine whether an individual is suitable for a given position.

                                      RECOMMENDATIONS

We recommend that the State agency ensure that Molina implements adequate information
system general controls over the State agency’s MMIS. Specifically, we recommend that the
State agency ensure that Molina:

    •   implements stronger user authentication for remote network access, strengthens its
        password history policy, and uses a secure method to store its encrypted network
        passwords;

    •   implements secure configuration settings for its network devices;



Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                    8
    •   implements policies and procedures to secure its Medicaid claims database,

    •   implements policies for its patch management program;

    •   implements policies and procedures to periodically review and account for inventory of
        all portable devices and identify the custodian of those devices; and

    •   implements (1) policies and procedures for annual security awareness training and
        (2) adequate policies and procedures for terminated and transferred employees and for
        background checks of employees.

                           STATE AGENCY COMMENTS AND
                      OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with all of our
recommendations except for parts of two recommendations. Specifically, the State agency did
not concur with part of our first recommendation that it ensure that Molina implements adequate
user authentication for remote network access, stating that Molina’s remote network access is
HIPAA-compliant and meets current standards for security and privacy controls. Also, the State
agency did not concur with part of our sixth recommendation that it ensure that Molina
implements adequate policies and procedures for terminated and transferred employees, stating
that Molina uses an electronic ticket system instead of a single paper exit document. The State
agency provided information on actions that it had taken or planned to take to address the
recommendations with which it concurred.

The State agency’s comments are included as Appendix C. We redacted information that we
considered to be sensitive.

To help secure ePHI, NIST Special Publication 800-53, Revision 3, recommends using
two-factor authentication for network access. Therefore, we revised our first recommendation to
indicate that the State agency ensure that Molina implements stronger user authentication for
remote network access. Molina’s Policy and Procedure No. 5.0, section III, states that an
out-processing checklist is to be completed for terminated employees. The State agency did not
provide us with paper documents or show us a feature in the electronic ticket system that
represented a completed out-processing checklist for any of the terminated or transferred
employees that we judgmentally selected. Nothing in the State agency’s comments caused us to
revise our sixth recommendation.




Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                   9
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Molina’s information system general controls over the State agency’s MMIS. We
did not perform penetration testing or review Molina’s overall internal control structure.

We conducted our audit from November 2012 to August 2013. We performed our fieldwork at
Molina’s facility in Boise, Idaho, and at its New Mexico Data Center in Albuquerque,
New Mexico.

METHODOLOGY

To accomplish our objective, we used appropriate procedures from FISCAM, which provides
guidance on evaluating general controls over computer-processed data from information
systems. We reviewed policies and procedures, interviewed staff, and reviewed supporting
documentation. To perform our tests, we used audit software-scanning programs to identify
potential security-related configuration vulnerabilities and judgmentally selected two types of
network devices and the Medicaid claims database.

To determine the potential impact of each finding, we used information described in FIPS
Publication 199, which defines the following three levels of potential impact should there be a
breach of security (i.e., a loss of confidentiality, integrity, or availability):

    •   low if the loss of confidentiality, integrity, or availability could be expected to have a
        limited adverse effect on organizational operations, organizational assets, or individuals;

    •   moderate if the loss of confidentiality, integrity, or availability could be expected to have
        a serious adverse effect on organizational operations, organizational assets, or
        individuals; and

    •   high if the loss of confidentiality, integrity, or availability could be expected to have a
        severe or catastrophic adverse effect on organizational operations, organizational assets,
        or individuals.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                    10
                       APPENDIX B: REQUIREMENTS RELATED TO
                      INFORMATION SYSTEM GENERAL CONTROLS

GENERAL FEDERAL REQUIREMENTS

Federal regulations (45 CFR part 95) require State agencies to determine appropriate computer
system security requirements based on recognized industry standards or standards governing
security of Federal computer systems and information processing. In addition, these regulations
require HHS to conduct periodic onsite reviews of State and local agencies to determine the
adequacy of computer methods and practices and to ensure that computer equipment and
services are used for purposes consistent with proper administration under the Social Security
Act.

Federal requirements from the HIPAA Security Rule for access management appear in 45 CFR
part 164.

ACCESS CONTROLS

Federal regulations state that for person and entity authentication, covered entities must
“[i]mplement procedures to verify that a person or entity seeking access to electronic protected
health information is the one claimed” (45 CFR § 164.312(d)).

NIST Special Publication 800-53, Revision 3, Security and Privacy Controls for Federal
Information Systems and Organizations, Appendix F, section IA-2, states that to enhance
controls, the information system should use multifactor authentication for network access to
privileged and nonprivileged accounts such that one of the factors is provided by a device
separate from the information system being accessed.

Molina’s password policies and procedures, as contained in Password Management document
IS-80.60, provide general requirements for passwords, including password history.

Microsoft’s TechNet document “Enforce password history,” under best practices, recommends a
password history setting of 24 generations.

Federal regulations (45 CFR § 164.312(a)(1)) state that a covered entity must “[i]mplement
technical policies and procedures for electronic information systems that maintain electronic
protected health information to allow access only to those persons or software programs that
have been granted access rights as specified in § 164.308(a)(4).”

CONFIGURATION MANAGEMENT

Federal regulations state that covered entities must “[i]mplement technical security measures to
guard against unauthorized access to electronic protected health information that is being
transmitted over an electronic communications network” (45 CFR § 164.312(e)(1)) and also
must “[i]mplement a mechanism to encrypt electronic protected health information whenever
deemed appropriate” (45 CFR § 164.312(e)(2)(ii)).



Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                     11
Molina’s password policies and procedures, as contained in Password Management document
IS-80.60, provide general requirements for passwords, including network devices.

NIST Special Publication 800-53, Revision 3, section AT-5, recommends that organizations stay
up to date with the latest recommended security practices, techniques, and technologies. Current
industry best practices include developing and implementing policies and procedures for
securing databases.

NIST Special Publication 800-53, Revision 3, Appendix F, section AU-6, states that
organizations review and analyze information system audit records. Specifically, the
information system provides the capability to centrally review and analyze audit records from
multiple components within the system.

Federal regulations state that a covered entity must “[i]mplement a mechanism to encrypt and
decrypt electronic protected health information” (45 CFR § 164.312(a)(2)(iv)).

Federal regulations (45 CFR § 164.312(a)(1)) state that a covered entity must “[i]mplement
technical policies and procedures for electronic information systems that maintain electronic
protected health information to allow access only to those persons or software programs that
have been granted access rights as specified in § 164.308(a)(4).”

Federal regulations state that a covered entity must “[i]mplement policies and procedures to
protect electronic protected health information from improper alteration or destruction” (45 CFR
§ 164.312(c)(1)).

NIST Special Publication 800-40, Version 2, Creating a Patch and Vulnerability Management
Program, section 2.7, states:

        Organizations should deploy vulnerability remediations [patches] to all systems
        that have the vulnerability, even for those systems that are not at immediate risk
        of exploitation. … Applying patches to multiple systems is a constant
        administrative challenge that may seem especially daunting when implementing
        patches on hundreds or thousands of servers and desktop systems. This task can
        be made less burdensome with the use of applications that automatically distribute
        updates to end-user computers.

SECURITY MANAGEMENT

Federal regulations state that a covered entity must “[i]mplement policies and procedures that
govern the receipt and removal of hardware and electronic media that contain electronic
protected health information into and out of a facility, and the movement of these items within
the facility” (45 CFR § 164.310(d)(1)).

NIST Special Publication 800-53, Revision 3, section MP-5, states that organizations document
activities associated with the transport of information system media and that a custodian of the
media should be identified at all times.



Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                    12
OMB Circular No. A-130, Appendix III, section A.3.a.(2)(b), states that training controls ensure
that “all individuals are appropriately trained in how to fulfill their security responsibilities
before allowing them access to the system … and periodic refresher training shall be required for
continued access to the system.”

NIST Special Publication 800-50, Building an Information Technology Security Awareness and
Training Program, section 3.3, states that at a minimum the entire workforce should be exposed
to awareness material annually.

Federal regulations state that a covered entity must “[i]mplement policies and procedures to
protect electronic protected health information from improper alteration or destruction” (45 CFR
§ 164.312(c)(1)).

NIST Special Publication 800-12, An Introduction to Computer Security: The NIST Handbook,
section 10.2.5.1, states that, because terminations can be expected regularly, a standard set of
procedures for outgoing or transferred employees should be put in place. These procedures are
part of the standard employee separation process that is in place to ensure that system accounts
are removed in a timely manner. The separation process also includes the control of keys; the
briefing on the responsibilities for confidentiality and privacy; and several other functions not
necessarily related to information security, such as the return of property.

Molina’s Policy and Procedure No. 5.0, Termination and/or Separation, section III.B, step 8,
states that, for offsite employees, the supervisor/manager completes an out-processing checklist
and forwards it to Human Resources. Step 9 states that, for onsite employees, Human Resources
completes an out-processing checklist.

OMB Circular No. A-130, Appendix III, section A.3.a.(2)(c), states that background check
screening must occur before an individual is authorized to bypass significant technical and
operational security controls and periodically thereafter.




Molina’s Information System General Controls Over Idaho’s MMIS (A-09-13-03001)                  13
                                  APPENDIX C: STATE AGENCY COMMENTS 




                                                   I D A H 0                DEPARTMENT                                             0 F

                                                  HEALTH & WELFARE
                 C.L. 'BUTCH" OTIER- Governor                                                                PAUL J. LEARY • Administrator
                 RICHARD M. ARMSTRONG- Director                                                                   DIVISIONOF MEDICAID
                                                                                                                      PostOffice Box 83720
                                                                                                                  Boise, Idaho 8372().1)009
                                                                                                                   PHONE: (208) 334-5747
                                                                                                                       FAX: (208) 364-1811



            May 12,2014

            Ms. Lori A. Ahlstrand
            Regional Inspector General
            Office ofAudit Services, Region IX
            Depattment of Health and Human Services
            90 - i 11 Street, Ste 3-650
            San Francisco, CA 94103

            RE: Report Number A-09-13-03001

            Dear Ms. Ahlstrand:

            In response to yo ur letter of Apri l 25, 20 14, below are the Depattment's responses to the draft 

            recommendations in Rep01t Number A-09-13-0300 I , Weaknesses in Molina Medicaid Solutions ' 

            Information System General Controls Over Idaho 's Medicaid Claims Processing System 

            Increase Vulnerabilities. 


                    1. Report Recommendation:
                       The State agency ensure that Molina (a) implements adequate user authentication for
                       remote network access, (b) strengthens its password history policy, and (c) uses a secure
                       method to store its encrypted network p asswords

                         Department Response: Do not concut· item (a) concut· items (b) & (c)

                        (a)We do not concut· because Molina's remote network access is HIPAA compliant and
                        m eets current industry standards for secutity and privacy controls. However, as
                        suggested by the auditor, Molina is currently analyzing the enhancement of their controls
                        by                                   which was recently recommended by the National
                        Institute of Standards and Technology (NIST).

                         (b) We concur with this recommendation. The Depattment will request that Molin a
                         strengthen its password history                              as recommended by the
                         OIG.

                        (c) We concur wi th this recommendation. • • • • • • • • • • • • • • • •
                        • • • •'&s r ecommended by the OIG.



           10
                Office of Inspector General Note -The deleted text has been redacted because it is sensitive infonnatio n.




Molina's Information System General Controls Over Idaho's MMIS (A-09 -I3-0300!)                                                               14
                 May 12, 2014 

                 Page 2 


                     2. 	 Report Recommendation:
                          The State agency ensure that Molina implements secure confi guration settings for its
                          network devices.

                         Department Response: Concur
                         Although the OIG                    findings do show vulnerabilities on some network
                         settings, these are co~1s idered low impact · · · · · · · · · · · · · · · · · ·
                         • • • • • • • • . However, Molina' s Network team wi ll address this
                         recommendation as part of the upcoming upgrade of their network devices.

                     3 . 	 Report R ecommendation:
                           The State agency ensure that Molina implements policies and procedures to secure its
                           Medicaid claims database

                         Department Response: Concur
                         Molina's database security policies and procedures were in the p rocess of being
                         documented at the time ofthe OIG Audit. This document has since been published and is
                         in use.

                     4. 	 Report Recommendation:
                          The State agency ensure that Molina implements policies for its patch management
                          prog ram.

                         Department Response: Concm· 

                         Molina's patch management policy has been published subsequent to the OIG audit. 


                     5. 	 Report Recommendation:
                          The State agency ensure that Molina implements policies and procedures to periodically
                          review and acco unt for inventory ofall portable devices and identify the custodian of
                          those devices.

                         Department Response: Concur
                         Molina's Asset Inventory Policy is in the process of being documented and will be
                         published shortly.

                     6. 	 Rep01·t Recommendation:
                          The State agency ensure that Molina implements (a) policies and procedures for annual
                          security awareness training and (b) adequate policies and procedures for terminated and
                          trans ferred employees and (c) for background checks of employees.

                         Department Response: Concur with items (a) & (c); do not concur item (b)
                         (a) We concur because the annual requirement was not in place at the time of the
                         auditor's visit. Molina now requires all its employees to ta ke the following security and
                         privacy awareness trainings annually:




            II
                 Office of Inspector General Note -The deleted text has bee n redacted because it is sensitive infonnation.




Molina 's Information System General Controls Over Idaho 's MMIS (A-09-I3-0300I)                                              15
             May 12, 20 14
             Page 3




                      (b) We do not concur because although Molina does not have a s ingle paper exit
                      document, they have an electronic ticket system that      the same function more
                      effectively. When an           is terminated,




                     (c) We concur because Molina could not provide the backgrow1d check documentation.
                     This sh01tcoming has been brought to the M olina HR department's attention and
                     procedures have since been reinforced to ensure this will not happen in the future.

             If you have any questions regarding the Depmtm ent's responses to these recommendations, please
                                                                                                       12
             contact                                                                  at




            12
             0ffice of Inspector General Note -The de leted text has bee n redacted because it is sensitive infonnation.




Molina's Information System General Controls Over Idaho 's MMIS (A-09-13-03001)                                            16
